                                         CLOSEOUT FOR EM93030014
              On March 22, 1993,         I-'                a program officer in the
    g       r    a     m at NSF, informed OIG that he had w i v e d allegations- o
      Giolation of the confidentiality of peer review from the complainant, 4                        ,a
      faculty member at                        The complainant had reviewed a proposal submitted by
y   t thel subject,
              - -                                member at the
      The complainant thought that a figure in the subject's proposal looked similar & a &re in the
      complainant's previously submitted proposal and conveyed similar concepts. He thought that
      the subject might have reviewed his proposal and adapted a figure in that proposal for use in the
      subject's proposal.

                OIG determined that the subject had reviewed the complainant's proposal prior to the
        submission of his own proposal but found that the figures in the two proposals were not
        identical. When OIG spoke with the complainant he said that it was quite possible that the
        subject, who is active in the same field of research as the complainant, could have independently
        developed the figure on the basis of the subject's knowledge of the literature. OIG reviewed
        both the original literature that developed the concepts contained in the allegedly plagkked
        figure and the two proposals. OIG found that the original literature, as well as textbooks
        published prior to the submission of either proposal, contained schematics that were similar to
        those in the complainant's and subject's proposals.

               OIG concluded that individuals who are experts in the same field are familiar with the
        same scientific literature. On the basis of their similar experiences they could independently
        develop similar figures to convey standard concepts by using slight variations on several
        commonly accepted schematics. The preexistence and common usage of the schematics to
        convey standard concepts renders the complainant's suspicions unsustainable. For this reason,
        OIG closed this case.

                                     ,     1017193


        Staff Scientist, Oversight

        Concurrence:

                                                                                 m&
                                                                                  G
                                                                       h   -?A        .         /
        Donald E. Buzzelli                                fames J. z&le&
        Deputy Assistant Inspector General for            Assistant ~ n ~ t General
                                                                             d r for Oversight
        Oversight



        L. ~ h c Birnbaum
                   y
        Assistant Counsel to the Inspector General

        cc:    Signatories
               Inspector General
